IN THE SUPREME COURT OF THE UNITED STATES

NO. 20-112
SHERRY HERNANDEZ
Petitioner,
vs.
PNMAC MORTGAGE OPPORTUNITY INVERSTORS, LLC,
et al.,
Respondent.
CERTIFICATE OF SERVICE
I, Michael L. Ludwig, counsel for PNMAC Mortgage Opportunity
Investors, LLC and PennyMac Loan Services, LLC, hereby certify that on this
20th day of August, 2020, I caused the Letter Request for Extension of Time to
be served by electronic service on the following counsel:
Rhonda Hernandez
HERNANDEZ LAW OFFICE
P.O. Box 16924
Galveston, TX 77552
Email: Rhonda.Hdz@gmail.com
Tel: (409) 939-4546
Counsel for Petitioner,
Sherry Hernandez
I further certify that all parties required to be served have been served.
/s/ Michael L. Ludwig
Michael L. Ludwig
BLANK ROME LLP
2029 Century Park East, 6th Floor
Los Angeles, CA 90067
Ludwig@BlankRome.com
Tel: (424) 239-3400
1

